No. 20-47
IN THE SUPREME COURT OF THE UNITED STATES
LEBAMOFF ENTERPRISES, INC., et al.,
Petitioners,
v.
GRETCHEN WHITMER, et al.,
Respondents,
and
MICHIGAN BEER & WINE WHOLESALERS ASSOCIATION,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
PROOF OF SERVICE
The undersigned certifies that on September 17, 2020, she efiled the request
for an extension of time and served the extension request upon counsel of record for
Petitioners, James Alexander Tanford, at his email address, tanford@indiana.edu,
and counsel of record for Respondents, Fadwa A. Hammond, at her email address,
HammoudF1@michigan.gov. Pursuant to the Court’s April 15, 2020 order, a paper
copy will not be required by the Court, and counsel of record agreed to waive the
paper service requirement for counsel for this filing.
Deborah A. Skakel
Deborah A. Skakel
Attorneys for Respondent Michigan
Beer & Wine Wholesalers Association

